Interra Credit Union

CREDIT CARD AGREEMENT

PO Box 727
Goshen, IN 46527-0727
574-534-2506 • 888-432-2848
FAX 574-534-0768
www.interracu.com

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS INTERRA CREDIT UNION OR ITS SUCCESSORS. BY USING YOUR CARD, YOU
AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN, AS AMENDED FROM TIME TO TIME.

THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR
THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY
INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE
WITH US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF
CREDIT EXTENDED UNDER THIS AGREEMENT. YOU ALSO AGREE
THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE
AND/OR FEDERAL LAW. IF YOU ARE IN DEFAULT, WE CAN APPLY
YOUR SHARES TO THE AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other
account that would lose special tax treatment under state or federal law if
given are not subject to this security interest.
If you have other loans with us, collateral securing such loans will also
secure your obligations under this Agreement, unless that other collateral is
your principal residence or non-purchase money household goods.
1. Using Your Card. You can purchase or lease goods and services from any
merchant who honors your Card, and you may obtain cash advances from
financial institutions and ATM machines that accept the Card, up to your
maximum credit limit. You agree not to present your Card or obtain a cash
advance for any extension of credit in excess of your available credit limit;
however, if you do exceed your credit limit, you agree to make immediate
payment sufficient to bring the balance below the credit limit. Certain
purchases and cash advances require authorization prior to completion of the
transaction. In some cases, you may be asked to provide identification. If our
system is not working, we may not be able to authorize a transaction, even
though you have sufficient credit available. Also, for security reasons, we may
block the use of your Card in certain countries or geographic areas. We will
have no liability to you or others if any of these events occur. Each of the
undersigned applicants certifies under the pains and penalties of perjury that
he/she is at least eighteen (18) years of age, has read the foregoing
Agreement, and jointly and severally agrees to abide by the foregoing terms
and provisions.
2. Personal Identification Number (PIN). We may issue a Personal
Identification Number (PIN) for use with your Card. This PIN is confidential
and should not be disclosed to anyone. You may use your PIN and your Card
to access your account, and all sums advanced will be added to your account
balance. In the event a use of your PIN constitutes an Electronic Funds
Transfer, the terms and conditions of your Electronic Funds Transfer
Agreement may affect your rights.
3. Authorized Users. Authorized users have no financial responsibility for this
account. You are responsible for all charges made by any appointed
authorized user(s). Authorized user(s) will have access to account information,
however, they will not have the same rights or privileges as you. Authorized
users may not: (a) add, edit, or remove account signers; (b) make
amendments or changes to the credit card account, including, but not limited
to, closing the account or making changes to credit limits; (c) request new or
replacement cards, PINs, or statements; or (d) request balance transfers.
Authorized user(s) agree that we may report this account to the credit bureaus
on their behalf.
4. Promise To Pay. You promise to pay us in U.S. dollars for (a) all
purchases, cash advances, and balance transfers made by you or anyone
whom you authorize to use the Card; (b) all Interest Charges and all other
charges or fees; (c) collection costs and attorney's fees as permitted by
applicable law, and any costs incurred in the recovery of the Card; and (d)
credit in excess of your credit limit that we may extend to you.
5. Illegal Transactions. You agree that your Card and account will not be
used to make or facilitate any illegal transactions as determined by applicable
law; and that any such use will constitute an event of default under this
Agreement. We may decline any transaction that we believe to be illegal
under applicable law, including but not limited to any transaction involving or
relating to any gambling activity. You agree that we will have no liability or
responsibility for any such use by you or any authorized user(s); or for
declining any such transaction. You further agree to indemnify and hold us
harmless from any suits, liability, damages or adverse action of any kind that
results directly or indirectly from such illegal use. You promise to pay us any
and all amounts owing on your Card for any transactions made by you, even if
the transaction is determined to be illegal.
9011 LASER FPDF FI1000724 2-2019

6. Joint Accounts. Each of you will be responsible, jointly and severally, for
the repayment of amounts owed, regardless of who initiated any transaction
under the account.
7. Others Using Your Account. If you allow anyone else to use your account,
you will be liable for all credit extended to such persons. You promise to pay
for all purchases and advances made by anyone you authorize to use your
account, whether or not you notify us that he or she will be using it. If someone
else is authorized to use your account and you want to end that erson's
privilege, you must notify us in writing, and if he or she has a Card, you must
return that Card with your written notice for it to be effective.
8. Ownership of Card. Your Card remains our property and may be cancelled
by us at any time without notice. You agree to surrender your Card and to
discontinue use of the account immediately upon our request.
9. Interest Charges. You agree to pay interest at the rate(s) disclosed to you
at the time you open your account and as may be changed from time to time in
accordance with applicable law. Average Daily Balance including new
transactions: Interest Charges will accrue on your average daily balance
outstanding during the month. To get the average daily balance, we take the
beginning balance each day, add any new purchases, cash advances, balance
transfers or other advances, and subtract any payments, unpaid interest
charges, and unpaid late charges. This gives us the daily balance. Then, we
add up all the daily balances for the billing cycle and divide that by the number
of days in the billing cycle. We then multiply that by the periodic rate
corresponding to the Annual Percentage Rate on your account. If you have
different rates for purchases, cash advances or balance transfers, separate
average daily balances for each will be calculated and the appropriate periodic
rate is then applied to each.
Grace Period on Purchases Only: You can avoid Interest Charges on
purchases by paying the full amount of the new balance for purchases each
month by the date on which the payment is due. therwise, the new balance of
your account, and subsequent advances from the date they are posted to the
account, will be subject to an Interest Charge. You cannot avoid Interest
Charges on cash advances and balance transfers; even if you pay the entire
cash advance balance or balance transfer balance by the payment due date,
you will incur the Interest Charges accrued from the date the cash advance or
balance transfer is posted to your account.
10. Fees. In addition to the Interest Charges set forth above, you agree to also
pay any and all fees that you incur as disclosed to you on your Truth-inLending Statement or similar disclosures (as may be amended from time to
time), or as disclosed to you during the term of your Card.
11. If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You
agree to notify us immediately if your Card is ever lost or stolen or if an
unauthorized use may have occurred. "Unauthorized use" means the use of
the Card by someone other than you who does not have actual, implied or
apparent authority for such use, and from which you receive no benefit. The
telephone number to call is (800) 449-7728. You agree to follow up your call
with notice in writing to us at: P.O. Box 727, Goshen, IN 46527-0727. You also
agree to assist us in determining the facts, circumstances and other pertinent
information relating to any loss, theft or possible unauthorized use of your
Card and comply with such procedures as we may require in connection with
our investigation. You will have no liability for MasterCard transactions not
authorized by you, provided that you have exercised reasonable care in
safeguarding the Card from risk of loss or theft, and upon becoming aware of
such loss or theft, you promptly report the loss or theft to us.
12. Minimum Payment Due; Crediting of Payments. We will mail you a
statement or provide one to you electronically via e-mail in any month in which
the Card has a debit or credit balance in excess of $1.00. Every month you
must pay at least the Minimum Payment within 25 days of your statement
closing date. You may, of course, pay more frequently, pay more than the
Minimum Payment, or pay the Total New Balance in full, and you will reduce
the FINANCE CHARGE by doing so. The Minimum Payment will be either (a)
2% of your Total New Balance, or $25.00, whichever is greater, or (b) your
Total New Balance if it is less than $25.00 plus (c) any portion of the Minimum
Payment(s) shown on prior statement(s) which remains unpaid. In addition, at
any time your Total New Balance exceeds your Credit Line, you must
immediately pay the excess upon demand. We will apply your minimum
payments first to any fees; then to any credit insurance charges; then to any

page 1 of 3

COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS INTERRA CREDIT UNION OR ITS SUCCESSORS. BY USING YOUR CARD, YOU
AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN, AS AMENDED FROM TIME TO TIME.

FINANCE CHARGES; then to previously billed cash advances; then to
previously billed purchases; then to new cash advances; and then to new
purchases. Payment amounts, over or above the required minimum payment,
will be applied to the balances with the highest annual percentage rate.
13. Default; Acceleration; Credit Suspension; Collection Costs. You will
be in default if: (1) you fail to make any payment on time; (2) if you fail to keep
any promises you have made under this Agreement or under other
Agreements you have with us; (3) if you die; (4) if you file a petition in
bankruptcy or have a bankruptcy petition filed against you, or if you become
involved in any insolvency, receivership or custodial proceeding; (5) if anyone
attempts to take any of your funds held by us via legal process or if you have
a judgment or tax lien filed against you; (6) if you make any false, inaccurate,
or misleading statements in any credit application or credit update; or (7) if
we, in good faith, believe that your ability to repay what you owe is or soon
will be impaired or that you are unwilling to make your payments.
If you are in default, we have the right to demand immediate payment of your
full account balance without giving you notice. If immediate payment is
demanded, you agree to continue paying interest charges and fees until what
you owe has been paid, and any shares that were given as security for your
account may be applied towards what you owe. You agree to pay all
reasonable costs of collection, including court costs and attorney's fees, and
any costs incurred in the recovery of the Card, subject to applicable law. Even
if your unpaid balance is less than your credit limit, you will have no credit
available during any time that any aspect of your account is in default.
14. Suspension of electronic services and access to share or deposit
accounts. Subject to applicable law, we may suspend some or all electronic
services and access to your checking or other account(s) if you become
delinquent on any of your credit card or deposit obligations to us or you cause
a loss to us. We shall not be liable to you in any regard in connection with
such suspension of services.
15. Additional Benefits/Card Enhancements. We may from time to time
offer additional services to your Account at no additional cost to you. You
understand that we are not obligated to offer such services and may withdraw
or change them at any time.
16. Convenience Checks. We may, at our discretion, issue checks to you
which may be used for any purpose other than making a payment for credit to
your account. By signing such check, you authorize us to pay the item for the
amount indicated and post such amount as a cash advance to your account.
We do not have to pay any item which would cause the outstanding balance
in your account to exceed your credit limit.
17. Credit Information. We may from time to time request personal
information from you or obtain credit reports from the credit reporting
agencies for the purpose of updating your credit status. Your failure to provide
such information when requested by us may result in suspension of credit
privileges under this Agreement, including your ability to obtain any future
advances by any means. You authorize us to investigate your credit standing
when opening or reviewing your account. You authorize us to disclose
information regarding your account to credit bureaus and creditors who
inquire about your credit standing.
18. Foreign Transactions; Currency Conversion. Purchases and cash
advances made in foreign currencies will be billed to you in U.S. dollars. The
conversion rate in dollars will be a rate selected by the card company from a
range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate the card company
itself receives, or the government-mandated rate in effect for the applicable
central processing date in each instance. All transactions processed outside
of the United States (which may include internet transactions) will be charged
a foreign transaction fee in the amount disclosed on your Truth-in-Lending
Statement (as amended from time to time).
19. Termination; Change-in-Terms. We may, by written notice, terminate this
Agreement at any time, subject to applicable law. You may terminate this
Agreement by written notice. Termination by either party shall not affect your
obligation to repay any balance on your account resulting from use of the
Card as well as Interest Charges and fees incurred. We may change the
terms of this Agreement, including the method of calculating the periodic rate,
at any time, by written notice, subject to applicable law. Use of the Card
constitutes agreement and acceptance of any change in terms, unless
applicable law requires otherwise. Our failure to exercise any of our rights or
to take any action shall not constitute a waiver of those rights, or an
amendment or change in any of the terms of this Agreement.

checks or money orders marked "payment in full" and such action shall not
constitute final settlement of your account or a waiver or forgiveness of any
amounts owing under this Agreement.
21. Enforcement. We do not lose our rights under this or any related
agreement if we delay enforcing them. If any provision of this or any related
agreement is determined to be unenforceable or invalid, all other provisions
remain in full force and effect.
22. Returns and Adjustments. Merchants and others who honor the Card
may give credit for returns or adjustments, and they will do so by submitting a
credit slip which will be posted to your account. If your credits and payments
exceed what you owe us, the amount will be applied against future purchases
and cash advances. If the credit balance amount is $1 or more, it will be
refunded upon your written or verbal request or automatically after 6 months.
23. Plan Merchant Disputes. We are not responsible for the refusal of any
plan merchant or financial institution to honor your Card. Also, we are not
esponsible for goods or services that you purchase with the Card unless: (a)
your purchase was made in response to an advertisement we sent or
participated in sending you; or (b) your purchase cost more than $50 and was
made from a plan merchant in your state or within 100 miles of your home;
and only if you have made a good faith attempt, but have been unable to
obtain satisfaction from the plan merchant. You must resolve all other
disputes directly with the plan merchant. We do not warrant any merchandise
or services purchased by you with the Card.
24. Statements and Notices. Statements and notices will be mailed to you at
the most recent postal address or e-mail address (if you have elected to
receive such documents via electronic means) you have given us. Notice sent
to any one of you will be considered notice to all.
25. Notification of Address Change. You will notify us promptly if you
change your address for any reason. In order to prevent identity theft, your
identity may need to be verified before we act upon the notification. The
Credit Union may revoke your card and terminate this Agreement if you
relocate to another state. We can revoke your Card if you move to a state
where the Credit Union must be registered.
26. Copy Received. You acknowledge that you have received a copy of this
Agreement.
27. Governing Law. This Agreement shall be construed under federal law
and state law in the state in which we are primarily located, and the venue
shall be located in the county and state in which we are primarily located.
Operating regulations of MasterCard may also apply. This Agreement is the
contract that applies to all transactions even though the sales, cash advance,
convenience check, credit or other slips you sign or receive may contain
different terms.
28. NOTICE TO UTAH BORROWERS: This written agreement is a final
expression of the agreement between you and the Credit Union. This written
agreement may not be contradicted by evidence of any oral agreement.
29. Debt Protection. If you elect debt protection offered by the Credit Union,
then the charges will be added to your account balance each billing cycle.
Debt protection offered by the Credit Union is voluntary and is not required to
obtain a credit card account with us. You have the right to terminate debt
protection offered by the Credit Union at any time by notifying us in writing.
30. Rewards, Incentives, Promotions. The Credit Union reserves the right
to terminate the programs or portions thereof at any time without restriction or
penalty. This means that regardless of your level of activity in the program, the
ability to accumulate points or claim rewards can be terminated with or
without prior notice. The redemption value of points already accumulated,
may be changed at any time without notice and without restriction or penalty.
The Credit Union also reserves the right to cancel any cardholders prior
earned points, rewards, cash/merchandise back or any other item of value if
you are in default as stated in the Default; Acceleration; Credit Suspension;
Collection Costs paragraph above. Awards are not available when a
cardholder is in default under the credit card agreement. Any points or awards
are earned only with purchases. Cash advance transactions are not eligible
towards earning points or any award/reward.
31. Correction of Errors and Omissions. You agree to fully cooperate in
correcting any errors in the Application or Agreement that we request within
the first 30 days after the account is opened, if we believe such corrections
are necessary or desirable. We will bear all costs of preparing any documents
necessary for such corrections.

20. Late or Partial Payments. Any payment that delays the reduction of your
balance will increase your total interest costs. Partial payments or
prepayments will not delay your next scheduled payment you will still need to
make the minimum scheduled payment by the next scheduled due date to
keep your account current. We may accept late payments, partial payments,
9011 LASER FPDF FI1000724 2-2019

page 2 of 3

COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.

IMPORTANT DISCLOSURES FOR ACTIVE MEMBERS OF THE MILITARY AND THEIR DEPENDENTS:
The following applies if at the time this loan is made you are an active member of the military or a dependent (as those terms are defined in the Military
Lending Act (MLA), 10 U.S.C. 987 and its implementing regulations (“MLA”), and (a) your loan is unsecured or secured by personal property or a vehicle
that you did not purchase with the proceeds of the loan; or (b) it is otherwise determined by law that the MLA applies to your loan. If this loan is a revolving
line of credit or credit card, the MLA ceases to apply at any time during which you are not a member of the military or a dependent (as defined in the MLA).
1.

NOTICE: Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit.
In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36
percent. This rate must include, as applicable to the credit transaction or account: the costs associated with credit insurance premiums or debt protection
fees; fees for ancillary products sold in connection with the credit transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card account). To receive
this notice verbally, please call 1-888-432-2848 during our normal business hours: 8:30 am - 5:00 pm EST M-F and Saturday 8:30 am - 12:00 pm EST.

2. This loan will not be secured by a consensual lien on shares or deposits in any of your accounts unless you agree to establish an account in connection
with this loan (“Secured Account”). Only funds deposited into the Secured Account after the loan is made will secure this loan. Any cross-collateralization
provision contained in your loan or account documents will not apply to the Secured Account or your other share or deposit accounts for any loan subject
to the Military Lending Act.
However, we reserve our statutory lien rights and rights to set-off or administrative freeze under federal or state law, which gives us the right to apply the
sums in the Secured Account or any other account(s) you have with us to satisfy your obligations under this loan.
3. Any reference in this consumer credit contract to the following are hereby inapplicable to your loan: (a) Mandatory arbitration; (b) Any requirement(s) to
waive your rights to legal recourse under any applicable state or federal law; (c) Any demands or requirements construed as unreasonable notice from
you in order to exercise your legal rights; or (d) Prepayment penalties.
4. Any provisions in your consumer credit contract, loan, security, or account agreements that are determined to be inconsistent with or contradictory to
these disclosures or the MLA (as they may be changed or amended from time to time) are inapplicable with regard to this loan. However, all other terms
and conditions of the consumer credit contract shall remain in full force and effect.

YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address(es)
listed on your statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do, we are not required to investigate any potential errors and you may have
to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we
cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50
of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at the address(es) listed on your statement.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

9011 LASER FPDF FI1000724 2-2019

page 3 of 3

COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.

